<html>
<title> - NOMINATION HEARING: GREGORY IBACH, TO BE UNDER SECRETARY OF AGRICULTURE FOR MARKETING AND REGULATORY PROGRAMS, AND. WILLIAM NORTHEY, TO BE UNDER SECRETARY OF AGRICULTURE FOR FARM AND FOREIGN AGRICULTURAL SERVICES</title>
<body><pre>[Senate Hearing 115-601]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-601

                          NOMINATION HEARING:
                          GREGORY IBACH, TO BE
                     UNDER SECRETARY OF AGRICULTURE
                      FOR MARKETING AND REGULATORY
                             PROGRAMS, AND
                         WILLIAM NORTHEY, TO BE
                     UNDER SECRETARY OF AGRICULTURE
                              FOR FARM AND
                     FOREIGN AGRICULTURAL SERVICES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                            OCTOBER 5, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-624 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>               




           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                DaNita M. Murray, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination Hearing: Gregory Ibach, to be Under Secretary of 
  Agriculture for Marketing and Regulatory Programs, and William 
  Northey, to be Under Secretary of Agriculture for Farm and 
  Foreign Agricultural Services..................................     1

                              ----------                              

                       Thursday, October 5, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     1
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     2
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     4
Sasse, Hon. Ben, U.S. Senator from the State of Nebraska.........     6
Grassley, Hon. Charles, U.S. Senator from the State of Iowa......     7

                               Witnesses

Ibach, Gregory, to be Under Secretary of Agriculture for 
  Marketing and Regulatory Programs..............................     8
Northey, William, to be Under Secretary for Farm and Foreign 
  Agricultural Services..........................................    10
                              ----------                              

                                APPENDIX

Prepared Statements:
    Ibach, Gregory...............................................    26
    Northey, William.............................................    32
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Former Chiefs of the Soil Conservation Service and Natural 
      Resources Conservation Service, letter of support..........    38
    Growth Energy, letter of support.............................    39
    Nebraska Cattlemen, letter of support........................    40
    Iowa Corn Growers Association, letter of support.............    41
    National Cattlemen's Beef Association, letter of support.....    42
    Agriculture Coalition, letter of support.....................    44
    Nebraska Soybean Association.................................    46
    Sand County Foundation.......................................    47
    5-day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Gregory Ibach.........    49
    5-day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by William Northey.......    79
Question and Answer:
Ibach, Gregory:
    Written response to questions from Hon. Pat Roberts..........   110
    Written response to questions from Hon. Debbie Stabenow......   113
    Written response to questions from Hon. Joni Ernst...........   121
    Written response to questions from Hon. Steve Daines.........   122
    Written response to questions from Hon. Patrick J. Leahy.....   123
    Written response to questions from Hon. Michael Bennet.......   128
    Written response to questions from Hon. Kirsten Gillibrand...   129
    Written response to questions from Hon. Robert Casey, Jr.....   131
    Written response to questions from Hon. Chris Van Hollen.....   134
Northey, William:
    Written response to questions from Hon. Pat Roberts..........   135
    Written response to questions from Hon. Debbie Stabenow......   138
    Written response to questions from Hon. John Boozman.........   147
    Written response to questions from Hon. Joni Ernst...........   148
    Written response to questions from Hon. Steve Daines.........   149
    Written response to questions from Hon. Patrick J. Leahy.....   150
    Written response to questions from Hon. Michael Bennet.......   157
    Written response to questions from Hon. Kirsten Gillibrand...   159
    Written response to questions from Hon. Robert Casey, Jr.....   160
    Written response to questions from Hon. Chris Van Hollen.....   162


 
                          NOMINATION HEARING:
                          GREGORY IBACH, TO BE
                     UNDER SECRETARY OF AGRICULTURE
               FOR MARKETING AND REGULATORY PROGRAMS, AND.
                         WILLIAM NORTHEY, TO BE
                     UNDER SECRETARY OF AGRICULTURE
                              FOR FARM AND
                     FOREIGN AGRICULTURAL SERVICES

                              ----------                              


                       Thursday, October 5, 2017

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:33 a.m., in SR-
328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Boozman, Hoeven, Ernst, 
Grassley, Thune, Stabenow, Brown, Klobuchar, Bennet, 
Gillibrand, Donnelly, Heitkamp, and Casey.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I call this hearing of the Senate 
Agriculture, Nutrition, and Forestry Committee to order.
    I thank my colleagues for joining me in reviewing the 
nominations of the individuals before us today, Mr. Gregory 
Ibach of Nebraska for the position of Under Secretary for 
Marketing and Regulatory Programs and Mr. William Northey of 
Iowa for the position of Under Secretary for Farm and Foreign 
Agricultural Services.
    This Committee has been reviewing nominations expeditiously 
on a bipartisan basis. It is crucial to have leadership tending 
to these very important mission areas at the Department of 
Agriculture.
    Secretary Perdue, the Department's 29 agencies and offices, 
and nearly 100,000 employees have been covering the bases. 
However, they need help in carrying out these missions on 
behalf of America's farmers, ranchers, growers, consumers, and 
businesses.
    The Under Secretary for Marketing and Regulatory Programs, 
to which Mr. Ibach has been nominated, oversees key programs 
and offices at the Department. This Under Secretary leads 
activities related to plant health, animal care, veterinary 
services, wildlife management, the promotion of U.S. 
commodities, regulation of biotech and its labeling on food, 
organics, and many other responsibilities. That is quite a job.
    This diverse range of responsibilities requires an 
individual at the helm who has equally diverse skills and 
experience. Anyone familiar with Mr. Ibach and his background 
knows he is well suited to this role.
    The position of Under Secretary for Farm and Foreign 
Agricultural Services, to which Mr. Northey has been nominated, 
oversees the commodity and producer lending and crop 
insurance--that is crop insurance, the most important 
mismanagement tool in the farmer's toolbox. It is called ``crop 
insurance.''
    Senator Stabenow. Crop insurance?
    Chairman Roberts. Crop insurance.
    Senator Stabenow. Crop insurance. Okay.
    Chairman Roberts. Especially for cherry trees.
    [Laughter.]
    Chairman Roberts. --conservation and disaster programs.
    While the Committee is considering the nomination for the 
Under Secretary for Farm and Foreign Agricultural Services 
role, the expectation is that subsequent legislation will 
officially change the name of the role to Under Secretary for 
Farm Production and Conservation.
    Along with the Farm Service Agency and the Risk Management 
Agency, Secretary Perdue's proposed reorganization will also 
bring the Natural Resources Conservation Service into a 
producer-and customer-focused mission area.
    Both Mr. Ibach and Mr. Northey have valuable boots-on-the-
ground experience. They are both farmers. They know what weighs 
on the minds of farmers and ranchers, the challenges they face 
on daily basis, and the focus and drive that they put into 
their life's work. Significantly, they are both dedicated 
public servants who have led their home State's agriculture 
departments. That is unique. That is special.
    I am pleased the Committee is considering your nominations 
today. Getting you both to work at the Department is critical 
because the roles to which you have each been nominated carry 
out functions related to the Department's day-to-day 
interaction with farmers, ranchers, and growers that impact 
their daily lives.
    These nominees have the support of more than 60 farm and 
conservation organizations. Without objection, I am entering 
the letters of support into the record at this point.
    We have a good record to date, and it is my hope that the 
Committee consider and approve your nominations as quickly as 
possible so we can send them to the full Senate for 
consideration.
    I look forward to your testimony. I now turn to my 
distinguished colleague, Senator Stabenow, for her opening 
remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and I am very pleased to be here as well with colleagues to 
consider two more USDA nominees.
    Mr. Northey and Mr. Ibach, congratulations to both of you. 
Welcome to your families. I enjoyed very much speaking with 
both of you.
    As we have heard from farmers and ranchers all across the 
country, we know that American agriculture is facing tough 
times. Low commodity prices have pinched margins, and extreme 
weather has decimated crops from the High Plains to the 
Southeast.
    I know that both of you are farmers. You understand these 
challenges and know that our farmers need leaders that will 
speak up for them when their voices are not being heard. Our 
farmers deserve strong and qualified leaders who will fight for 
all of American agriculture.
    Mr. Northey and Mr. Ibach, with your Iowan and Nebraskan 
roots--and it is wonderful to have our Senate colleagues here 
with us today as well--I know you understand that production 
agriculture is an important component to our farm economy. 
However, the true strength of American agriculture is rooted in 
the diversity of what we grow.
    My home State is very proud to have more crop diversity 
than any other State except California, and we are working on 
that. Driving down the road, you will see corn and soybeans and 
wheat on one side, and you can see apple orchards and asparagus 
and cherry trees on the other side.
    However, past Farm Bills have been focused on commodities. 
For example, risk management programs were only available to 
traditional commodity farmers on one side of the road until we 
worked together in the last Farm Bill. But what you grow should 
not determine about whether or not your farm can be protected 
from losses.
    All farmers deserve a safety net, which is why I am so 
pleased we are able to expand access to tools like crop 
insurance for specialty crop growers, and importantly, I 
believe we need to take that step for dairy farmers as well.
    Mr. Northey, if confirmed to lead USDA's farm services and 
risk management agencies, we need your commitment to make crop 
insurance stronger and more accessible to every farmer, no 
matter who they are and what they grow.
    You will also oversee the Natural Resource Conservation 
Service, which means you will have to balance a lot of 
responsibilities, which we talked about in my office.
    I represent the Great Lake State. The Agriculture Committee 
also represents our Great Lakes system, and for me, no matter 
where you are in Michigan, you are no more than 6 miles away 
from a body of water. So protecting our rivers, lakes, and 
streams is incredibly important to me and to the people in 
Michigan. I know as well it is important to other Members of 
the Committee.
    I know you personally understand that agriculture needs to 
be a part of the solution in addressing water quality issues, 
and if confirmed for this role, I urge you to continue to 
prioritize the protection of our land and our water.
    Mr. Ibach, if confirmed, you will be overseeing a very 
large and diverse mission area as well. One minute, you will 
find yourself enforcing international trade agreements, 
safeguarding our agreements, and at the same time, you will be 
safeguarding the integrity of the National Organic Program 
abroad.
    The next minute, you will be providing guidance to help 
farmers transition to organic production and tap into new 
markets at home.
    At all times, you will be on call to defend our food system 
against some of the most pressing threats to animal and plant 
health. Specialty crops are particularly susceptible to 
invasive pests, and we have seen devastating impacts on 
cherries and other fruit and vegetables in my State.
    Your portfolio would also put you in the driver's seat of 
many exciting opportunities for American agriculture. The 
growing demand for local food has created new ways for our 
farmers to connect to consumers, especially new and beginning 
farmers as well.
    Back home, I see more and more Michigan-Made signs in 
grocery stores, and we like to see that. This is a trend that I 
hope will continue, and I hope you will commit to supporting 
our local food system economy.
    Mr. Northey and Mr. Ibach, if confirmed, your work and 
leadership will have a tremendous impact on my State, on the 
States of the Members of this Committee, and all of American 
agriculture and, frankly, all of American families.
    When Secretary Perdue came before this Committee earlier 
this year, he pledged to be a strong and tenacious advocate for 
American agriculture. Today, we ask that you join him in that 
commitment and fight for the resources that our farmers and 
ranchers need and deserve.
    Thank you.
    Chairman Roberts. As is our tradition in the Agriculture 
Committee, I would like to recognize the family and friends of 
the nominees who have gathered here today. Please stand and be 
recognized. Do not be bashful.
    [Applause.]
    Chairman Roberts. It is also a privilege to welcome 
Congressman Adrian Smith from Nebraska here to support his 
friend and colleague, Greg Ibach.
    Congressman, if you would stand, please, and be recognized. 
Thank you for coming, sir.
    [Applause.]
    Chairman Roberts. I know it is tough to get up in the 
morning and figure out you have to come to the upper body.
    [Laughter.]
    Chairman Roberts. Sorry about that. I used to be over 
there.
    Thank you all for joining us at this important hearing.
    Greg Ibach will be introduced now by Senator Deb Fischer 
and Senator Ben Sasse.
    Senator Fischer, it is an honor to have you with us today.
    Senator Fischer is an honorary member of the Agriculture 
Committee, I would tell the Ranking Member, you know that. 
Thank you for taking the time to introduce Mr. Ibach. You are 
recognized at this particular time. Thank you, ma'am.

 STATEMENT OF HON. DEB FISCHER, U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman and Ranking Member 
Stabenow and to my colleagues here on this Committee. I thank 
you for inviting me here today.
    I am honored to introduce my fellow Nebraskan and my good 
friend, Greg Ibach, the nominee to serve as Under Secretary of 
Agriculture for Marketing and Regulatory Programs.
    Greg is no stranger to agriculture. In the beef State, we 
are home to the Nation's top cattle producers and best Ag 
leaders.
    Some of you may remember our great friend, Nebraskan and 
former Member of this Committee, Senator Mike Johanns. As a 
former Secretary of USDA, he knew a thing or two about 
agriculture. When Senator Johanns was Governor of our State, he 
appointed Greg to serve as assistant director for the Nebraska 
Department of Agriculture.
    Senator Johanns made an excellent choice because Greg went 
on to serve as Nebraska's director of agriculture, a position 
he has now held for the past 12 years. Every step of the way, 
Greg has demonstrated his dedication to the unsung heroes of 
the American dinner table--our farmers and ranchers.
    I am also pleased to introduce Greg's wife, Teresa, and his 
daughter, Emily, who are with him here today. I thank both of 
them for sharing Greg with the State of Nebraska over the 
years.
    I think everyone in this room today can agree our successes 
would not be possible without the sacrifices of our loved ones, 
so I thank them.
    Growing up on his family's cow-calf and row-crop operation 
outside of Sumner, Nebraska, laid a strong foundation for Greg 
to serve his fellow agriculture producers. He understands the 
unique challenges our farmers and ranchers face because he is 
completely immersed in this industry.
    As Nebraska's director of agriculture, Greg has worked 
tirelessly to promote common-sense policies that allow 
producers to do what they do best, to feed the world. This 
includes opening foreign markets for Nebraska's high-quality 
agriculture products and hosting international trade groups at 
Nebraska ranches, feed yards, and food manufacturers.
    Under Greg's leadership, Nebraska gained market access in 
regions of the world that had previously been shut off to 
American producers. For example, Greg and I worked together to 
reopen the Israeli market to Nebraska beef for the first time 
in 13 years. Throughout this process, Greg demonstrated his 
unique capacity to work with many different stakeholders at the 
local, State, and national level to ensure that producers 
prospered. At the USDA, he will serve America's farmers and 
ranchers with the same knowledge, passion, and dedication.
    The last few years have been tough for agriculture. To 
continue being global leaders in food, fiber, and fuel 
production, Nebraska's and America's producers need regulatory 
certainty. For too long, USDA has been encased in bureaucratic 
ambiguity. This does not garner confidence from those in rural 
America who earn their living off the land. But fortunately, 
under Secretary Perdue's leadership, that status quo is 
changing.
    As State Ag director, Greg was charged with regulatory 
responsibilities in the areas of animal and plant health, 
weights and measures, as well as food safety and consumer 
protection. He has an uncanny ability to build relationships by 
communicating with regulators and also with producers. This is 
a needed skill for the next Under Secretary of Agriculture for 
Marketing and Regulatory Programs. I am confident that Greg's 
experience leading the Nebraska Department of Agriculture, 
coupled with his real-world, personal understanding of farm 
country, make him highly qualified to serve at the USDA.
    There is much at stake for agriculture in America right 
now. Mr. Chairman and Ranking Member, I urge you and the 
Committee to quickly approve Greg's nomination and bring it to 
the floor of the Senate so that we can vote on this 
confirmation. Secretary Perdue needs his team in place to 
better serve our farmers and ranchers so that they can do their 
job of feeding the world, and Greg's role, if he is confirmed, 
is critically important in executing this mission.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Fischer, thank you for that very 
fine introduction, and I will turn to Senator Sasse.
    Senator Sasse, welcome back to the Committee. We have 
missed your pertinent, unique, and 35-cent word commentary, and 
we would like to--you might want to consider coming back. We 
welcome you now, sir, for any remarks you would like to make on 
behalf of Mr. Ibach.

  STATEMENT OF HON. BEN SASSE, U.S. SENATOR FROM THE STATE OF 
                            NEBRASKA

    Senator Sasse. Thank you, sir. I feel like I need to do 
math around 35 cents times how much money I owe you for the 
notes you have slipped to me for words to work in today, but, 
Chairman, thank you, Ranking Member, Members of the Committee. 
It is great to be here, and it is a privilege to follow my 
senior Senator and be able to introduce Greg Ibach.
    As you know, Greg has been nominated to be USDA Under 
Secretary for Marketing and Regulatory Programs. Nobody 
outworks Nebraskans, and nobody knows this better than Greg 
Ibach. Greg has built his entire career and his whole life on 
honesty and on hustle. He is the man for the job, and 
Nebraskans could not be prouder of the President's selection.
    A Nebraskan through and through, Greg has served our State 
and our agriculture community very well. As has been mentioned, 
he served three different governors in our State department of 
ag, and it is a confluence of his life's work, farming, 
ranching, and promoting Nebraska agriculture.
    Nebraskans know that our State's agricultural trade has 
grown in the global marketplace partly because of Greg's 
tireless efforts to promote our commodities across the globe. 
Greg built and maintained stakeholder relationships and 
initiated strategies to promote Nebraska ag, both domestically 
and internationally, allowing us to become the breadbasket of 
the world.
    Greg will bring a personal vigor to the USDA as he analyzes 
issues, develops strategies, and creates solutions for many of 
these global initiatives. Greg has a proven public service 
record that is defined by executing innovative strategies and 
consensus among broad and diversified and often competing 
constituencies and stakeholders.
    Greg has empowered the employees that have worked with and 
for him at the Nebraska Department of Agriculture to achieve 
the shared visionary goals that you have heard Secretary Perdue 
lay out before this Committee for the U.S. Department of Ag, 
both to promote more economic opportunity and to help rural 
America thrive.
    Greg's unrelenting work has expanded youth involvement and 
leadership in agriculture as well. For years, he has brought 
high school juniors and seniors from around our State together 
to explore careers in Ag through the Nebraska Agriculture Youth 
Institute, an institute that is now 46 years old, the longest-
running youth institute for agriculture in America, and Greg 
personally brings more than 200 students every year to Lincoln 
to explore careers in Ag across our State. Greg understands 
what the future of agriculture looks like, and his leadership 
at the USDA should bring comfort to hardworking producers and 
to hungry consumers across the country.
    Again, Chairman and Ranking Member and Members of the 
Committee, it is a pleasure on behalf of the State of Nebraska 
to introduce Greg to you and his wife, Teresa, and I am 
absolutely confident that all of you will find it a great 
privilege and pleasure to be able to work with Greg.
    Thanks for having us.
    Chairman Roberts. Thank you, Senator.
    It occurs to me with two Senators, Mr. Ibach, that perhaps 
you have enough significant influence to bring Nebraska back to 
the Big 12 where you belong.
    [Laughter.]
    Chairman Roberts. I now turn to Senator Grassley to 
introduce our next nominee, Bill Northey from Iowa.
    Senator Grassley.

 STATEMENT OF HON. CHUCK GRASSLEY, U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. First of all, let me explain to the 
nominee and to the Committee that after I introduce him, I will 
not be back because I have all four of my committees meeting 
today and particularly the Budget Committee that will take 
hours and hours, so I hope you will understand that I do not 
think any less of your nomination because I am not here to hear 
everything you say, but I know you well.
    Also, to the Members of the Committee, it is an honor for 
me to introduce Bill Northey, Iowa's Secretary of Agriculture, 
to this Committee. I consider him a friend as well as our 
Secretary of Agriculture, and let me explain to the Committee 
that this is a special honor for me to introduce him. It kind 
of returns a favor because his dad, 30 years ago, served on my 
Agriculture Committee for the campaign, my first campaign for 
the Senate, and you do not forget people like that because I 
was not the candidate of the Iowa Republican establishment at 
that particular time, and so I feel a great closeness to the 
Northey family.
    Mr. Northey has been nominated to serve as Under Secretary 
for Farm Production and Conservation at our USDA, and he has 
been our Iowa Secretary of Agriculture since 2006. During his 
tenure, he has focused on soil conservation and helping develop 
a robust renewable energy industry that we have in Iowa. He was 
also in that position when he had to deal with a very serious 
crisis that we had for chickens and turkeys with the high-path 
avian influenza outbreak, which occurred in 2015.
    Secretary Northey understands agriculture. He is a fourth-
generation farmer from Spirit Lake, Iowa, where he raises corn 
and soybeans. He appreciates the ins and outs of farming and 
what it is like to put your life savings on the line every year 
to grow a crop in rural America that will feed and fuel the 
world.
    Secretary Northey has served on the Iowa Farm Service 
Agency Committee for his county and also for the State and was 
president of the National Corn Growers Association for the 
years '96 and '97.
    He has also traveled the world visiting over 15 countries 
to promote U.S. agriculture.
    Secretary Northey graduated from Iowa State in 1981 with a 
degree in Agribusiness and has an MBA from Southwest Minnesota 
State University.
    Perhaps his most important quality is his vision that he 
has shown leading the Iowa Department of Agriculture. As an 
example, Bill was focused on water quality issues in Iowa years 
before many farmers and press outlets became engaged, and I say 
that and emphasize it for the benefit of my colleague from 
Michigan.
    I cannot think of anyone better equipped to ensure our 
Nation's farm programs are properly administered than this Iowa 
Secretary Northey. We are lucky to have someone of his 
capability ready to lead the agencies he will be responsible 
for.
    So, Secretary Northey, welcome to the Committee.
    Chairman Roberts. Thank you, Senator. We appreciate your 
commentary.
    As is the tradition and custom of the Committee before 
nominee witnesses are to provide their testimony, I must 
administer the oath. If both of you could please stand and 
raise your right hands.
    First, do you swear that the testimony you are about to 
present is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Mr. Northey. I do.
    Mr. Ibach. I do.
    Chairman Roberts. Second, do you agree that if confirmed, 
you will appear before any duly constituted committee of 
Congress if asked to appear?
    Mr. Northey. I do.
    Mr. Ibach. I do.
    Chairman Roberts. Thank you.
    We look forward to your testimony.
    Mr. Ibach.

 TESTIMONY OF GREGORY IBACH, NOMINEE TO BE UNDER SECRETARY OF 
       AGRICULTURE FOR MARKETING AND REGULATORY PROGRAMS

    Mr. Ibach. Good morning, Chairman Roberts, Ranking Member 
Stabenow, and Members of the Committee. Thank you for the 
opportunity to appear before you today to discuss my desire to 
serve the American public as President's nominee--President 
Trump's nominee as the Under Secretary for Marketing and 
Regulatory Programs.
    I am honored to be nominated by the President and humbled 
by the trust and confidence that Secretary Perdue has shown in 
selecting me for this position.
    I also want to thank Senator Fischer and Senator Sasse for 
their very kind introductions and their steadfast support of me 
throughout the nomination process.
    I also want to thank Congressman Smith, who is here today, 
for his support of my nomination as well.
    I am honored to have Steve Nelson, Craig Uden, and Lynn 
Crisp representing Nebraska's production agriculture community 
in attendance as well today.
    I am joined today by my wife, Teresa. Her support and love 
for the last 29 years has provided me the opportunity to serve 
as the assistant director and director of the Nebraska 
Department of Agriculture for almost 20 years.
    We are the proud parents of triplets, who are 25 years old. 
Our daughter Emily, from Denver, is with us here today, and our 
son Evan, who lives in Minneapolis, and son Alec and his wife 
Meredith, who live in Carney, Nebraska, were unable to attend. 
I am proud that my children represent the fourth generation on 
my mother's side of the family and the fifth generation on my 
father's side of the family to farm and ranch in northeast 
Dawson County, Nebraska, near the small town of Sumner.
    Our family farm consists of row-crop and cow-calf 
enterprises. As is the case with many farm operations in our 
country, our farm has weathered many difficult times because of 
persistence, communication, and teamwork. I look forward to 
bringing those same principles to USDA, if I am confirmed.
    The principles of hard work and dedication that I learned 
working alongside my parents growing up nurtured a love of 
agriculture and led me to attend the University of Nebraska, 
where I majored in animal science and agricultural economics.
    Following graduation from college in 1984 during the heart 
of the historic farm crisis, I spent 6 years working for the 
farm credit system in Iowa and Nebraska. I then returned to the 
farm to pursue my love of production agriculture, and with the 
assistance of my parents and grandparents, Teresa and I started 
our own family farming operation and raised our three children.
    Those years also provided key opportunities to become 
involved in the organizations that represented our family's 
farm operation. I was involved in our county and State Farm 
Bureau; our county, State and national cattlemen's 
organizations, where I achieved leadership positions at both 
the State and national levels.
    I was honored in 1999 to be asked by Governor Mike Johanns 
to serve as assistant director of Department of Agriculture and 
then by Governor Dave Heineman and Governor Pete Ricketts to 
serve as director of the Nebraska Department of Agriculture. 
During my tenure as director, I was also elected to serve as 
president of the National Association of State Departments of 
Agriculture.
    I have approached my tenure at the department with service 
to Nebraska's nearly 50,000 family farm and ranch families in 
mind. I believe my status as an active producer has been 
essential to my role within the department. That said, however, 
I also recognize and have an appreciation for the structure of 
government and its role in protecting and serving all citizens.
    The MRP mission area is comprised of many programs focused 
on improving market competitiveness for the overall benefit of 
consumers and producers of American agriculture. If honored to 
receive your confirmation, I will work faithfully to implement 
the authorities outlined by Congress.
    Balancing two priorities--the first representing and 
promoting the interest of farmers and ranchers; and the second, 
overseeing entities that regulate them--can be a difficult 
task. However, the word ``balance'' is key to that equation.
    By maintaining balance, MRP can achieve Secretary Perdue's 
Department-wide goals of supporting job creating, prioritizing 
customer service, and ensuring our communities access to a safe 
and secure food supply.
    I am also committed to promoting the market opportunities 
and protecting the integrity associated with the organic seal, 
while maintaining and preserving and protecting our natural 
resources.
    I am also keenly aware of my responsibility to maintain 
plant and animal health and well-being as well.
    Each day, my decisions will be tempered by two principles: 
How will regulatory programs and promotional activities improve 
the opportunities not only for my neighbors in Sumner but also 
Americans across the country? I recognize the weighty 
responsibility to maintain consumer confidence in the products 
produced and the production methods implemented.
    If confirmed, I pledge to be available to listen to you, 
other Members of Congress, and the many diverse voices of 
agriculture who will have ideas and input for the programs 
under my supervision.
    Thank you again for your attention and consideration of my 
nomination. I will be humbled to serve, if confirmed, and would 
look forward to working together to serve American agriculture.
    [The prepared statement of Mr. Ibach can be found on page 
26 in the appendix.]
    Chairman Roberts. We thank you, Greg.
    Mr. Northey.

TESTIMONY OF WILLIAM NORTHEY, NOMINEE TO BE UNDER SECRETARY FOR 
             FARM AND FOREIGN AGRICULTURAL SERVICES

    Mr. Northey. Well, good morning, Mr. Chairman, Ranking 
Member Stabenow, and distinguished Members of the Committee. I 
am honored to appear before you today as the President's 
nominee for USDA FFAS having responsibilities for the farm 
production and conservation mission area with responsibilities 
for Farm Service Agency, Risk Management Agency, and Natural 
Resources Conservation Service.
    I thank the President for nominating me and appreciate 
Secretary Perdue's support and trust in my ability to take on 
this new role.
    I thank Senator Grassley for his kind words of introduction 
this morning and Senator Ernst for her support and 
encouragement. I am humbled.
    I want to thank my wife, Cindy, and daughter, Katie, who 
are with me here today. Cindy, without your sacrifice and love, 
I would not be here today. I also want to thank our daughters, 
Jessica and Emily, their husbands, Thomas and Eric, our five 
grandkids. I thank you my parents as well, Wayne and Margaret 
Northey, my sister, Nancy, who are all sitting in front of 
their computers at home in Spirit Lake intently watching this 
hearing.
    I am a corn and soybean farmer from Northwest Iowa. My 
farming roots go back several generations on both sides of my 
family. Cindy and I raised our three daughters on the farm my 
grandfather bought in the 1930s. On my mom's side of the 
family, a farm first bought by her great-grandfather celebrated 
its 150th year in our family and is now owned and operated by 
my mom's cousin.
    I began serving in the Iowa Corn Growers boards of 
directors in the 1980s and eventually served as president of 
both the Iowa Corn Growers Association and the National Corn 
Growers Association.
    I was involved in some of the early important work on 
ethanol, the development of an awful important industry to many 
of us in this room. I also worked on Farm Bill, trade and 
environmental policies while at Corn Growers.
    I served 8 years on the local soil and water conservation 
district board and 5 years on the State Iowa Farm Service 
Agency Committee.
    In 2006, I was elected president of the--or I was elected 
Iowa Secretary of Agriculture and reelected in 2010 and 2014 
and still serve in that capacity today.
    I have continued farming while serving as Secretary of 
Agriculture, getting most of my farming done on weekends and at 
nights.
    Being Secretary has given me the opportunity to visit lots 
of parts of Iowa, including what we call the ``full Grassley'' 
in Iowa. That is visiting all 99 counties at least once every 
year. I have done it for 10 years. The Senator has done it for 
over 30 years. It is one of the best parts of the job to be 
able to understand and see the folks in the countryside.
    But being Secretary has also given me the opportunity to be 
able to travel to many of your states and meet some of your 
producers, certainly develop friendships with other State 
Secretaries, directors, and commissioners of agriculture.
    If confirmed, I look forward to being able to travel more 
and be able to better understand the needs of your producers, 
to be able to meet more of our great producers across this 
country.
    You have heard Secretary Perdue and his goal for better 
customer service, and certainly, customer service improvements 
must be measurable. They will require better cooperation 
between agencies, and I believe housing NRCS, FSA, and RMA in 
the same mission area is a step in that right direction.
    We also need to engage new technologies to be able to allow 
efficiencies and the responsiveness improvements that need to 
happen as well.
    I thank you for the time and your staff's time in meeting 
and leading up to this hearing and sharing your thoughts and 
concerns about RMA, FSA, and NRCS. I heard strong support for 
NRCS and its mission and both concern and support for the 
combination of NRCS with FSA and RMA. If given the opportunity 
to serve, I look forward to strengthening each of these 
agencies to ensuring that this move leads to better customer 
service and reporting back to this Committee on the progress of 
such efforts.
    In our meetings, many of you commented on the operation of 
FSA disaster programs as well following the wildfires, 
droughts, and hurricanes, including the challenges faced by 
producers in Puerto Rico. While I have not been briefed on the 
efforts within USDA to address these issues, I believe 
certainly FSA, NRCS, and RMA have important roles to play, and 
if confirmed, ensuring our producers in these areas are getting 
all the support they need from USDA will be a top priority.
    I will read it as I wrote it: Crop insurance is the most 
important part of the farm safety net, Mr. Chairman, and 
through RMA, we need to ensure that we maintain this vital tool 
for producers. While our farm safety net has worked for many, 
many producers, I do also hear that there are producers that 
are left out, and I am committed to this Committee to work with 
all of you to make sure that all producers have the risk 
management tools that they need.
    So I will be an advocate within the administration for the 
producers in the countryside. I look forward to working with 
all of you, and I appreciate this tremendous opportunity to be 
involved and serve our country's producers.
    Thank you.
    [The prepared statement of Mr. Northey can be found on page 
32 in the appendix.]
    Chairman Roberts. We thank you, Mr. Northey.
    Unfortunately, we have three votes that are scheduled. 
These are 15-minute votes, which means they are 30-minute 
votes, and we will do the best that we can here going to vote 
and coming back. I know also that several Members are on the 
Budget Committee. They have a very important meeting today as 
well, so we are going to get through this as best we can.
    Mr. Ibach, foreign animal disease threats are a growing 
concern for producers and animal health experts. In recent 
years, outbreaks of disease such as avian influenza have 
demonstrated the vulnerability of animal agriculture to these 
threats. If confirmed, you will be leading the Department's 
Animal and Plant Health Inspection Service, known as APHIS. Can 
you briefly describe some priorities you will pursue as Under 
Secretary that relate to safeguarding animal, agriculture, and 
our national security as a result?
    Mr. Ibach. Yes. Thank you.
    APHIS is perhaps maybe one of the most important roles that 
I will serve in USDA because if we are not able to keep 
diseases and pests that are not in the United States out of the 
United States or control and contain the ones that we do have, 
we put our Nation's farmers, ranchers, and producers at great 
risk.
    So we will take that responsibility very seriously. I look 
forward to learning more about each and every program that 
addresses those concerns and issues and working with producers 
to implement proper biosecurity across the board to be able to 
help produce, protect, and safeguard our Nation's crops and 
livestock.
    Thank you.
    Chairman Roberts. I appreciate that.
    The vote has been called. I am going to vote, but I am 
going to ask you one more question here and then come back and 
allow the distinguished Ranking Member to cast her vote as 
well.
    While farmers and ranchers feel stifled by many government 
regulations, to say the least, every now and then, there are 
those regulations that actually help streamline business and 
can reduce burdens. One example is a proposed rule pertaining 
to APHIS, categorical exclusions from certain review processes. 
The effect of implementing this rule will be quicker 
development and deployment of important veterinary biologics, 
such as vaccines that are used in managing animal disease 
outbreaks. Can you commit to shepherding this rule through the 
Government review process?
    Mr. Ibach. I was--thank you for that question. That is an 
important issue.
    I must admit I am not fully briefed on that, and I realized 
during our conversation, you were--that was an important issue 
to you as well. I do pledge to become very informed on that 
issue and work with you and other Members of the Committee to 
understand your priorities and make the best decision possible, 
if confirmed.
    Chairman Roberts. Mr. Northey, you have already--I think 
you have answered this question with regards to crop insurance, 
but basically, if confirmed as Under Secretary, will you 
protect crop insurance from attacks like premium subsidy 
reductions, caps, or adjusted gross income limits? How will you 
work to improve these risk management tools for producers 
across the country?
    Mr. Northey. I look forward to working with you, Mr. 
Chairman, the Committee as well, Members of the House to 
support the very important risk management tool that crop 
insurance is.
    Chairman Roberts. As Iowa Secretary of Ag, you have direct 
experience working on conservation issues in your home State. 
If confirmed, you will be overseeing conservation programs 
nationwide administered by both the Farm Service Agency and the 
NRCS. How will you work to ensure that the USDA voluntary 
conservation programs--voluntary conservation programs, you 
have background in this--are administered in a balanced 
approach that meets natural resource needs?
    Mr. Northey. You know, I think it is--Mr. Chairman, so many 
partnerships are important to be able to deliver these 
programs.
    So in the State of Iowa, we have been able to partner with 
NRCS, with private organizations, and be able to create 
watershed projects.
    The voluntary nature of these programs is what engages 
producers, and so it is very important that these programs work 
well for producers, such that they are interested in 
participating. Part of that is being able to understand the 
relevance and making sure that these are working in all parts 
of the country.
    I am very familiar with some of the issues within the 
Midwest. I need to do more homework and understand some of the 
issues in other places as well.
    Chairman Roberts. Thank you for that.
    Senator Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman.
    We know that you both understand that it is a busy day with 
a lot of things happening, and so we apologize for the comings 
and goings.
    But I want to take a moment to talk about the budget. The 
President had originally proposed a huge cut to the Farm Bill, 
including a $29 billion cut to crop insurance and $6 billion to 
conservation. The Congress is rejecting that level of cut, but 
today, I am going to be going to the Budget Committee, where 
there is built into the baseline, a $21 billion cut in farm 
programs. That does not count the cuts to nutrition programs, 
which are separate.
    I am heartened by Chairman Roberts and Chairman Conway in 
the House indicating they believe there is some flexibility in 
that, but I am very concerned about what is going to be 
happening here. The fact that we in the last Farm Bill, if you 
count the direct cuts and the savings and the policy that we 
put in place, the budget office says we will have saved over 10 
years about $100 billion, which is unique to committees to be 
able to do that voluntarily.
    Given what is happening with farm prices and the challenges 
that farmers have, I am very concerned that we should not be 
put in a position to be cutting more from supports for farmers 
and conservation and so on.
    Let me just take a moment. I am going to ask just very 
quickly, to hear your position on the following issues. Mr. 
Northey, you have talked about crop insurance, we know you 
support crop insurance. But just yes or no, do you support 
opening up crop insurance to more crops so that more types of 
farmers can participate?
    Mr. Northey. Yes.
    Senator Stabenow. Thank you.
    Do you support working lands conservation programs?
    Mr. Northey. Yes.
    Senator Stabenow. Thank you.
    Do you support conservation partnerships that leverage 
Federal dollars with private dollars to help farmers address 
issues like water quality, drought, and wildlife habitat?
    Mr. Northey. Sure do. Yes.
    Senator Stabenow. Thank you.
    Mr. Ibach, do you support programs that help specialty crop 
growers access new markets, protect against pest and disease, 
and promote their products?
    Mr. Ibach. I do.
    Senator Stabenow. Thank you very much.
    Do you support Farm Bill programs that promote direct-to-
consumer markets, including farmers markets?
    Mr. Ibach. Yes.
    Senator Stabenow. Do you support continued development of 
local and regional food systems?
    Mr. Ibach. Yes.
    Senator Stabenow. Do you think Americans living in a food 
desert should have access to healthy, affordable food?
    Mr. Ibach. Of course.
    Senator Stabenow. So just to both of you, given the budget 
situation that we are in right now, will you each advocate 
strongly to the White House to protect the USDA's budget and 
commit to supporting the programs that are authorized and 
appropriated by Congress?
    Mr. Ibach?
    Mr. Ibach. I commit to doing the best job with the 
resources that the Congress designates to my programs within 
MRP, and I also commit to looking for efficiencies moving 
forward that allow us to do more with less.
    Senator Stabenow. We certainly want efficiencies, and we 
need strong advocacy as well, so thank you.
    Mr. Northey?
    Mr. Northey. Yes. I look forward to certainly supporting 
Secretary Perdue's comments and be an advocate for agriculture 
in those needs in agriculture and working with this Committee 
and Members of the House as well and being able to make sure 
that we stretch that budget as far as we can, but we have the 
resources necessary as well.
    Senator Stabenow. Thank you very much.
    I have additional questions, and in the interest of time, 
so my colleagues can ask questions, I will submit them to the 
record.
    I just want to indicate I have enjoyed very much having the 
opportunity to meet privately with you and to address issues in 
particular that are of concern to Michigan, and I look forward 
to supporting you as you move through this process.
    Mr. Northey. Thank you very much.
    Senator Stabenow. I think Senator Thune is taking over from 
here. I am told to turn to Senator Thune----
    Senator Thune. [Presiding.] Okay.
    Senator Stabenow. --and then to Senator Klobuchar. So, 
Senator Thune, I am passing the gavel to you.
    Senator Thune. Thank you, Senator Stabenow, and to you and 
the Chairman for holding this hearing, and thanks to our 
nominees for your willingness to serve. We are grateful for you 
brining your skills to bear on the important work of American 
agriculture.
    Mr. Northey, you have worked at USDA now--with USDA, I 
should say, over three terms as the Iowa Secretary of 
Agriculture, and I am sure that you have been frustrated as I 
have over the bureaucratic processes that sometimes hamper 
achieving desired results.
    As an example, during this past drought-stricken summer in 
the Northern Plains, extreme forage and grazing shortages 
forced many grazing livestock producers to reduce their herds.
    CRP emergency haying and grazing was a critical source of 
feed, and I appreciate Secretary Perdue's cooperation in 
opening CRP for haying and grazing, yet it took weeks for 
approval to open up all reasonably available acres.
    As one of your first priorities, I want to urge you to 
review administrative processes in the three mission areas 
under your jurisdiction and see what we might be able to do to 
expedite some of these administrative authorities when needed. 
Is that something you would commit to doing?
    Mr. Northey. I would. Yes, Senator.
    Senator Thune. Pending your confirmation--well, let me skip 
to this next question. Based on your experience as Iowa 
Secretary of Agriculture, would you agree that more flexibility 
in the management of CRP, such as allowing CRP practices to be 
grazed on a limited basis or hayed one-third of each contract 
every year would enhance the productivity and simplify the 
management of the CRP program?
    Mr. Northey. Yeah. I think there is certainly--it is 
important to be able to understand the needs and opportunities 
for producers that provided some flexibility within the 
guidelines of the program, and so if confirmed, I am very 
interested in being able to talk about additional flexibilities 
and understand what the law allows and what would be beneficial 
to producers and to managing that natural resource.
    Senator Thune. Good, good.
    Well, and to the degree that you have authority--and we 
think that you do--we have been trying for a long time to get 
greater flexibility in management, particularly as mid-contract 
management practices, which are just completely contrary to we 
think what is sound in terms of promoting not only good 
wildlife production but environmental practices and everything 
else that goes with it.
    There are certain CRP practices that are designated as 
environmentally sensitive, and there appears to be an interim 
administrative action that USDA has imposed over the years, 
which limits the use of these so-called designated areas and 
management practice. Would you support removing these 
environmentally sensitive designations on CRP acres? These are 
practices that, again, have been applied in the past, but we do 
not think make a lot of sense and have been very hard to get 
freed up for emergency haying and grazing through the years 
when we have had circumstances that required it.
    Mr. Northey. I am not familiar with that issue. I would 
certainly look forward to being briefed. If confirmed, I would 
love to be able to work with you and your staff in 
understanding the needs of your producers, but I would need to 
do some homework on that issue.
    Senator Thune. Well, I would just point out that in 2012 
and 2017, which were drought years, these environmentally 
sensitive acres, CRP contracts were opened up for emergency 
haying and grazing, without negative consequences that I am 
aware of. In fact, in most cases, we were able to get the 
wildlife groups in support of that, and I think that the record 
will show that was not something that had any adverse impact.
    So, again, it is another one of those bureaucratic sort of 
administrative roadblocks that we think make it more difficult 
to meet the needs to producers out there who in drought 
conditions for sure are suffering and need some relief.
    Let me just ask one more question. I am sorry I am asking--
holding on to this side of the panel. But we have a substantial 
demand for CRP right now, both for general and continuous 
enrollment, and CRP plays a critical support role in our State 
for what is our world-class pheasant hunting. It is estimated 
to provide about almost $300 million annually to South Dakota.
    What plans do you have to reinstate CRP open enrollment for 
the next general signup, and does USDA support a higher acreage 
cap, as I do, as part of the 2018 Farm Bill? Just so you know, 
I support raising it to 30 million acres. It is at 24 right now 
under the current Farm Bill.
    Mr. Northey. Well, I know there is a lot of conversation 
about the acreage cap going into the next Farm Bill. I 
certainly look forward to being a part of those conservations, 
if confirmed. I need to have conversations with our Secretary 
Perdue and be able to understand exactly what administration's 
support is, but CRP is an important program and answers many of 
the natural resource needs that are out there.
    Certainly, continuous enrollment--I was one of the largest 
continuous enrollment CRP States across the country, and that 
has allowed us to address nutrient reduction wetlands, buffers, 
lots of other important areas. Hitting that cap potentially 
limits the ability to be able to add new acres.
    So there is a challenge there, but it is a balance amongst 
lots of different points of view. We are glad to be a part of 
that conversation, if confirmed.
    Senator Thune. Well, we look forward to working with you. 
You have under your jurisdiction lots of farmers and ranchers 
in South Dakota between FSA and NRCS and RMA, so we will have 
an opportunity, I am sure, to ask additional questions in the 
future.
    But I thank you both for your service.
    My time has expired.
    I am going to pass the gavel now to Senator Hoeven and then 
recognize----
    Senator Klobuchar. Senator Hoeven, I was just going to ask 
two questions before I have to go vote.
    So thank you to both of you, and I know that you, Mr. 
Northey, went to Southwest Minnesota State University in 
Marshall; is that right?
    Mr. Northey. I did, yes. Thank you.
    Senator Klobuchar. It is very important to add to your 
biography. I would suggest that.
    [Laughter.]
    Senator Klobuchar. Welcome, both of you. We are excited for 
you for your nominations. I will just ask some quick questions 
here.
    Mr. Northey, 3,500 dairy farmers in Minnesota have been hit 
hard by the low milk prices, which have been compounded by new 
trade barriers in export markets and ongoing difficulties with 
the Margin Protection Program. Do you believe that dairy 
producers need additional insurance products to manage their 
risk, and can I count on you to help us with this problem?
    Mr. Northey. Certainly, if confirmed, I would be very 
interested in being able to work to see what kinds of programs 
could work better.
    We heard many concerns from many Members about the lack of 
risk management tools for dairy producers and the challenges 
with the MPP.
    Senator Klobuchar. Thank you.
    Mr. Ibach, Minnesota is number one for turkeys in the 
country, number two for hogs, second only to Iowa.
    In Minnesota, we have faced some hardships, as was 
discussed earlier, due to disease with both these industries, 
some really horrible situations, and will you commit to working 
with me to help APHIS better monitor and respond to diseases 
like avian influenza?
    Mr. Ibach. Yes. I think that the reference that you are 
making to the outbreak that we had several years ago was a 
chance for not only producers to learn some opportunities that 
they have to improve biosecurity and protect themselves but 
also a wakeup call to States and the Federal Government to look 
into programs and systems to deliver those programs and 
benefits that are available in quicker and better ways.
    Senator Klobuchar. Thank you.
    Mr. Northey, in Minnesota, CRP is an important voluntary 
conservation program, yet during the recent signup, only 149 of 
1,367 offers were accepted, 90 percent rejection rate. I know 
that USDA must manage the program under the statutory cap of 24 
million acres. We know there is substantial demand. What plans 
do you have to reinstate CRP open enrollment for the next 
general signup, if you are concerned?
    Mr. Northey. Well, I would certainly be interested in 
understanding the options that are available to USDA with the 
cap and the challenges with the acres that are out there.
    Obviously, this Committee and Members of the House will 
spend a lot of time looking at what the next Farm Bill should 
have in it for funding and for a cap on CRP, and that is going 
to be an important conversation. I look forward to being a part 
of that conversation.
    Senator Klobuchar. Thank you.
    I appreciated that you mention the renewable fuel standard. 
Pretty important in Minnesota as well.
    Thank you, both of you, and I will go and vote and leave it 
in the able hands of my colleagues. Thank you.
    Chairman Roberts. [Presiding.] Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Mr. Northey, do you agree that crop insurance is the most--
one of the most, if not the most risk management tool for 
farmers?
    Mr. Northey. Absolutely.
    Senator Hoeven. Okay. So you will do everything you can to 
support it, strengthen it? You will do everything you can to 
support and strengthen it?
    Mr. Northey. Yes.
    Senator Hoeven. Okay. Also, the loan limits on FSA, I am 
working on legislation that would increase those lending limits 
on FSA on the direct from $300,000 to $600,000, on the 
guarantee for $1.39 million to--what is it? We are going to 
about $2.5 million. Do you support increasing those loan limits 
for FSA?
    Mr. Northey. I certainly look forward to working with you. 
That will be a prerogative of Congress in what is a part of 
that next Farm Bill.
    I would be--I recognize the challenges to producers as the 
asset needs have gone up, and we are in a time right now when 
producers have a lot of financial challenges.
    Senator Hoeven. Yeah. Capital costs for agriculture going 
up, wouldn't you say?
    Mr. Northey. Right. Yes.
    Senator Hoeven. Okay. We have got drought. We have had 
drought out in our State of North Dakota, in Montana, South 
Dakota as well. Will you help me provide relief to our farmers 
and ranchers?
    Mr. Northey. Yes.
    Senator Hoeven. Okay. ARC and PLC are obviously the key 
components of counter-cyclical safety net. Of course, we are 
always very deferential to our Chairman on this Committee, but 
we are looking at strengthening those programs. Will you work 
with us to strengthen those programs?
    Mr. Northey. I would very interested in being able to do 
that, if confirmed.
    Senator Hoeven. What else are your priorities in the Farm 
Bill?
    Mr. Northey. Certainly, conservation is an important 
priority and making sure that our programs are flexible, that 
they are funded, and that they can work with many other 
partners from the States certainly to the farmers and to others 
that can bring some resources to the conservation and water 
quality and even soil health effort that is going on across our 
country.
    Senator Hoeven. Do you support more CRP acreage?
    Mr. Northey. I am very interested in what the opportunities 
are, and that takes financial resources. This Committee and the 
rest of the Members of the Senate and the rest of the Members 
of the House will have a lot to say in what that number is. I 
am very interested in being able to provide the information 
that can help inform that decision, if confirmed.
    Senator Hoeven. I am not sure what that answer was.
    [Laughter.]
    Senator Hoeven. But we are down to 24 million acres, and 
there is a pretty strong demand out there for it, particularly 
with the current lower commodity prices and so forth.
    Mr. Northey. There was an impact by hitting the cap this 
last year. So I am not close enough to have been a part of the 
conversations within USDA, and so not been briefed on those 
pieces, but within the countryside of Iowa, there were some 
folks that would have liked to have been able to get their 
acreage into CRP. We have hit the cap on some of the continuous 
enrollments at CRP as well. Recognize there are constraints as 
far as the acreage cap, as far as the dollars for the program, 
certainly would be very interested in working with you, as 
those are policy decisions that you all are a part of, and 
deciding what that will be, we are going to implement the 
decisions that Congress gives us, the direction that you all 
provide for us.
    Senator Hoeven. Well, again, I am not exactly sure what you 
said, but the readout I am getting from farmers out there is 
they want to see an increase in CRP. It is something that I 
will be working on and look forward to working with you on.
    I am teasing you a little bit. I know you are saying you 
will work with us on it, and I appreciate that very much.
    Mr. Northey. Thank you, Senator.
    Senator Hoeven. Then, Mr. Ibach, obviously, APHIS is very 
important in terms of managing the interface between 
agriculture and wildlife and so forth. In our State, we have 
great hunting and fishing, and we have even greater 
agriculture. So we work with this all the time.
    One of the problems we are running into in a big way--we 
have in years past, but we certainly are this year again, is 
blackbirds, huge--millions and millions of dollars. If you ever 
come out there, I mean, it is like Alfred Hitchcock's ``The 
Birds.'' You know, it is scary if you are out there by 
yourself. I am kidding, but there is a lot of them. Any ideas 
on how we can better control the blackbirds, but using that as 
an example of managing this interface in an effective way?
    Mr. Ibach. We also in Nebraska have seen high populations 
of blackbirds as well, so I understand exactly what you are 
talking about from my experience as a farmer and rancher and 
director in the Department of Agriculture in Nebraska.
    But speaking more broadly about looking for solutions to 
interface with wildlife, to, of course, be able to preserve and 
protect them, when appropriate, but also being able to look out 
for the needs of our farmers and ranchers that face the greater 
possibility of disease coming into their operations as well as 
the damage that wildlife can wreak on livestock as well as 
crops, we would need to look at a balanced approach. I used the 
word ``balance'' in my opening comments and would look forward 
to working together with producer groups and organizations to 
find solutions that can have broad support.
    Senator Hoeven. Well, I am an avid hunter, and I like to 
fish, although my wife is a much better fisher person than I 
am.
    Mr. Ibach. Last time we went fishing, my wife caught the 
bigger fish, too. So it is a bad deal.
    Senator Hoeven. Yes, she is a lot better.
    But farmer-friendly policies actually work for sportsman.
    Mr. Ibach. That is right.
    Senator Hoeven. Do you follow me?
    Mr. Ibach. That is right.
    Senator Hoeven. Because the farmers and ranchers are out 
there every single day, and if you want to get permission to--
not so much fish, but certainly to hunt, you have to work with 
the farmers. So farmer-friendly policies actually benefit 
sportsmen done right, so----
    Mr. Ibach. Yeah. I understand that, and over the course of 
the last few years across many States, we have seen the 
conservation programs that farmers are participating in on a 
voluntary basis have increased wildlife not only in Nebraska 
but in many States.
    Senator Hoeven. Yeah. With creativity, there is a lot we 
can do.
    Thank you very much to both of you.
    Mr. Northey. Thank you.
    Senator Hoeven. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, I would like to welcome you here today.
    Mr. Ibach, it was wonderful visiting with you.
    Mr. Ibach. Thank you very much.
    Senator Ernst. Mr. Northey, it has been wonderful to see 
you as well.
    I just want to make my commendations for Mr. Northey to the 
Committee. It is a pleasure to know you as a colleague back in 
the State of Iowa working with the Department of Agriculture in 
your capacity there but also as a friend. Thank you so much. 
You and your wife, Cindy, are wonderful farmers, 
conservationists, and stewards of our land, and we thank you 
for your years and years of service to the great State of Iowa.
    Mr. Northey--since its inception in 2013, you have been a 
stalwart leader and a champion of the Iowa nutrient reduction 
strategy, and we have seen the positive impact of this 
relatively young program already. We know that continuing our 
efforts to promote voluntary incentive-based conservation are 
going to yield results in soil health and water quality.
    If you could just give us an overview on how has your work 
in implementing this program prepared you for taking on the 
reins at the NRCS?
    Mr. Northey. Thank you, Senator.
    It certainly has been a big part of our work at the Iowa 
Department of Agriculture and Land Stewardship the last 5 or 7 
years. Prior to that, we have always been very active in the 
soil conservation effort, but as we saw some issues developing, 
whether it is Chesapeake Bay, whether it is challenges in the 
Great Lakes, certainly the hypoxic zone in the Gulf of Mexico, 
and then water quality issues within Iowa as well, we decided 
we needed to be able to be more proactive looking at water 
quality issues. This is reducing nitrate and phosphorus in our 
rivers, lakes, or streams, certainly the loss from our farms 
but also our urban areas.
    So I serve on the Hypoxia Task Force, which is a dozen 
States up and down the Mississippi River. It is five Federal 
agencies as well that are a part of that. We meet to coordinate 
conversations about what we are each doing in our States.
    One of the things we agreed to do was put together a 
nutrient reduction strategy within each State, and Iowa was one 
of the early ones to put that strategy together. Ours is built 
on a non-regulatory, proactive conservation water quality 
effort.
    So since that time, the State of Iowa has caught the vision 
as well, and now this year is up to $10.5 million direct 
investment in our water quality initiative in Iowa, which has 
allowed us to partner with farmers to grow cover crops. At the 
time the nutrient reduction strategy was begun, we had less 
than 100,000 acres of cover crops in the State of Iowa. This 
last year, we were over 600,000 acres. One of our cost-share 
programs this year is to offer 50 percent cost share to farmers 
that are interested in adding cover crops, and we had 1,000 
farmers sign up for their first year of trying cover crops on 
their farms.
    We have also had added nutrient reduction wetlands. We have 
80 of those now. We have bioreactors and saturated buffers. So 
the momentum is really growing.
    We have a long ways to go? Absolutely. We have lots more 
that needs to get done, but what I am excited about is the 
momentum, both in the interest of farmers and in bringing lots 
of outside groups, leveraging those State dollars, partnering 
with our Federal partners, and bringing in lots of other 
organizations.
    So to me, that has been one of my pride and joys to be a 
part of. It certainly has taught me the value of working across 
borders. We took farmers down to Mississippi to see what 
farmers were doing there. We have been very engaged in 
different ways, and I look forward to taking that experience to 
NRCS, if confirmed.
    Senator Ernst. Fantastic.
    I have had the opportunity to go out on watershed tours 
with you as well, Mr. Northey, and so we have seen what IDALS, 
the Iowa Department of Agriculture and Land Stewardship, and 
what the NRCS, our local farmers, our communities have been 
able to do through a number of those projects that you have 
just described.
    But what role has the RCPP, the Regional Conservation 
Partnership Program, played in some of those water quality 
initiatives as well?
    Mr. Northey. It has been very important. So the RCPP really 
helps organize folks, brings some Federal dollars, into 
partnerships. It creates partnerships because we will get 
together, and to have a good, effective application, you need 
many partners, some matching dollars. We have several RCPPs, 
including our last largest RCPP--is $9.5 million of Federal 
dollars along with $30 million worth of match and about 50 
organizations that are a part of that, so local soil and water 
conservation districts, watershed projects, private 
organizations as well. So it is a great way to leverage tools.
    You put folks together in the same room; Sometimes they 
come even with slightly different priorities. But you find out 
that you can leverage and get more done by working together, 
and it has been an important part of that effort.
    Senator Ernst. Absolutely. I want to thank you for that 
because you really have been a true leader on those water 
quality initiatives, and I know that when Iowa came up with 
their nutrient management strategy, the EPA even was very 
complimentary of the voluntary process and the engagement that 
we had throughout Iowa. So I want to compliment you on that.
    I know my time has expired, but I look forward to looking 
with both of you gentlemen. Thank you so much for your service. 
I appreciate it. Thank you.
    Thank you, Mr. Chair.
    Chairman Roberts. Thank you, Senator Ernst. Very good 
questions.
    That will conclude our hearing today. I thank both nominees 
for their thoughtful comments and their engagement with the 
Members of this Committee. I also want to thank you for your 
willingness to advocate for America's farmers, ranchers, and 
growers at the people's Department.
    The answers you have provided today will be considered as 
we move to approve your nominations in the near future. We are 
going to do that as expeditiously as we possibly can. 
Expeditious in Senate, perhaps an oxymoron, but we will try to 
do that just as soon as we possibly can.
    To that end, I would request that if my fellow members have 
any additional questions for the record, they be submitted to 
the Committee Clerk by 5:00 p.m., tomorrow, Friday, October 
6th.
    We look forward to receiving your responses, and to further 
considering your nominations.
    The Committee is adjourned. Thank you, gentlemen.
    [Whereupon, at 10:41 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            OCTOBER 5, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            OCTOBER 5, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                            OCTOBER 5, 2017

      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
